No.

IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA,
Respondent,
-vSERGIO AMAYA-MARTINEZ,
Petitioner.
On petition for writ of certiorari to the
United States Court of Appeals for the Fifth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Jacob Blizzard
Blizzard & Zimmerman, P.L.L.C.
Texas Bar No. 24068558
441 Butternut St.
Abilene, Texas 79602
Ph. 325-676-1000
Fax. 325-455-8842
Email. jacob.blizzard@blizzardlawfirm.com
Court-Appointed Attorney for
Petitioner Sergio Amaya-Martinez

1

No.

IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA,
Respondent,
-vSERGIO AMAYA-MARTINEZ,
Petitioner.
On petition for writ of certiorari to the
United States Court of Appeals for the Fifth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
To the Supreme Court of the United States:
Mr. Amaya-Martinez respectfully seeks leave to proceed in forma pauperis.
With this motion he has filed a petition for a writ of certiorari.
Mr. Amaya-Martinez is indigent. Mr. Blizzard was appointed by the U.S.
District Court under the Civil Justice Act of 1964, 18 U.S.C. ยง 3006A, to represent
him in his federal direct appeal. Blizzard has not received any funds, or the promise
of any funds, from any other source other than under the Act for payment of legal
fees for appeal.
2

For the reasons set forth above, Petitioner respectfully prays that this Court
grant leave to proceed in forma pauperis.
Respectfully submitted:
By:

/s/ Jacob Blizzard

Jacob Blizzard
TBN: 24068558

Jacob Blizzard
Blizzard & Zimmerman, PLLC
Texas Bar No. 24068558
441 Butternut St.
Abilene, Texas 79602
Ph. 325-676-1000
Fax. 325-455-8842
Email. jacob.blizzard@blizzardlawfirm.com
Court-Appointed Attorney for
Petitioner Sergio Amaya-Martinez

3

CERTIFICATE OF SERVICE
I hereby certify that, on or before September 13, 2021, a true and correct
copy of this motion was mailed by first-class U.S. mail to:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave., N.W.; Room 5616
Washington, DC 20530-0001

/s/ Jacob Blizzard

Jacob Blizzard , Attorney for Petitioner,
Sergio Amaya-Martinez

4

